Office of
Inspector General
                    Semiannual Report to the Congress

                             April 1 through
                           September 30, 2011



                                 Number 45

                              October 26, 2011
Farm Credit Administration                                 Office of Inspector General
                                                           1501 Farm Credit Drive
                                                           McLean, VA 22102-5090
                                                           (703) 883-4030




October 26, 2011


The Honorable Leland A. Strom, Chairman and Chief Executive Officer
The Honorable Kenneth A. Spearman, Board Member
The Honorable Jill Long Thompson, Board Member
Farm Credit Administration
1501 Farm Credit Drive
McLean, Virginia 22102-5090

Dear Chairman Strom and FCA Board Members Spearman and Long Thompson:

Enclosed is the semiannual report on the activities of the Farm Credit Administration’s (FCA or
Agency) Office of Inspector General (OIG) for the period April 1 through September 30, 2011. This
is the forty-fifth report since the establishment of the OIG on January 22, 1989.

I am submitting this report in accordance with the Inspector General Act of 1978, as amended (IG
Act). Section 5(b) of the IG Act requires that the FCA Board send this report to the appropriate
Congressional committees and subcommittees within 30 days after the date of this transmittal,
accompanied by management’s report on the status of audit, inspection, and/or evaluation action
items.

On September 12, 2011, the OIG issued a final report on an audit of the Agency’s Approval Process
of Funding Corporation Debt Issuances. The audit found the approval process in compliance with
all guidelines and no action items resulted.

The audit on the Agency’s contracting activities remained ongoing at the end of this period. The
objective of this audit is to determine whether the FCA’s contracting environment is efficient and
effective in acquiring products and services that provide the best value to FCA. Please refer to page
3 for further information.

The OIG contracted with the Bureau of the Public Debt for Brown & Company CPAs, PLLC, to
perform the audit of FCA’s financial statements for fiscal year 2011. This audit was ongoing at the
end of this reporting period. Please refer to page 3 for further information.

Also initiated and ongoing during this period is the OIG’s annual evaluation of the Agency’s
compliance with the Federal Information Security Management Act. This annual evaluation is
conducted by the OIG’s Senior Information Technology Auditor. Please refer to page 3 for further
information.
                                                                                                      2

Ten agreed-upon actions were closed in this reporting period resulting from two reports issued in
fiscal year 2010. First, the OIG issued a final report on July 26, 2010, of an inspection of FCA’s
compliance with the Government in the Sunshine Act. While the inspection found the Agency
adheres to the Sunshine Act, there was one agreed-upon action that resulted, which was closed by
management on May 2, 2011. Second, the OIG issued a final report on September 16, 2010, of an
inspection of FCA’s process for reviewing, tracking, and responding to Farm Credit System
borrowers’ complaints. While the process for handling borrower complaints was determined to be
functioning satisfactorily, ten agreed-upon actions resulted from the inspection. Nine were closed
during this reporting period.

At the end of this period, there was one open agreed-upon action from the inspection of the
Agency’s borrower complaint handling process. Please refer to page 4 for further information.

During this reporting period we concluded a peer review of the Consumer Product Safety
Commission’s Office of Inspector General’s audit function, a required periodic review. Please refer
to page 14 for further information.

If you have any questions, please call me at 4241 or 4030. I look forward to continuing a positive
relationship between the OIG and the FCA Board, which I view as a partnership striving to
strengthen FCA operations.

Respectfully,



Carl A. Clinefelter
Inspector General

Enclosure
                                                  OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                               APRIL 1 – SEPTEMBER 30, 2011



                       TABLE OF CONTENTS
EXECUTIVE SUMMARY…………………………………………………………….……………… 1

BACKGROUND……………………………………………………………………………………… 2
  FARM CREDIT ADMINISTRATION………………………………………………………………… 2
  FARM CREDIT SYSTEM…………………………………………………………………………… 2

AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED…..………………………….. 3
  FCA’S APPROVAL PROCESS OF FUNDING CORPORATION DEBT ISSUANCES……….......... 3

AUDITS, INSPECTIONS, AND EVALUATIONS IN PROGRESS….………..………………..... 3
  FCA’S CONTRACTING ACTIVITIES……………………………………………………………………… 3
  FY 2011 INDEPENDENT FINANCIAL STATEMENT AUDIT OF FCA…………………………....... 3
  FY 2011 FEDERAL INFORMATION SECURITY MANAGEMENT ACT EVALUATION……………. 4

STATUS OF UNIMPLEMENTED RECOMMENDATIONS……………………………………… 4

INVESTIGATIONS…………………………………………………………………………………... 5

LEGISLATION AND REGULATIONS…………………………………………………………….. 5

OTHER ACTIVITIES………………………………………………………………………………... 6
  QUARTERLY SURVEY OF FARM CREDIT SYSTEM INSTITUTIONS……………………………. 6
  STAFF PARTICIPATION IN ACTIVITIES WITHIN THE INSPECTOR GENERAL COMMUNITY….. 7
  STAFF PARTICIPATION IN AGENCY ORGANIZATIONS…………………………………………. 7
  STAFF DEVELOPMENT……………………………………………………………………………. 7

ANNEX……………………………………………………………………………………………....... 8

APPENDICES
  APPENDIX A – INDEX OF REPORTING REQUIREMENTS……………………………………...                         9
  APPENDIX B – AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED………………....              10
  APPENDIX C – REPORTS WITH QUESTIONED COSTS………………………………………..                          11
  APPENDIX D – REPORTS WITH RECOMMENDATIONS THAT FUNDS
                 BE PUT TO BETTER USE…………………………………………………….                             12
  APPENDIX E – PEER REVIEWS CONDUCTED OF THIS OFFICE………………………………                       13
  APPENDIX F – PEER REVIEWS CONDUCTED BY THIS OFFICE………………………….……                      14
  APPENDIX G – FCA ORGANIZATIONAL CHART………………………..………………….……                           15
  APPENDIX H – OFFICE OF INSPECTOR GENERAL ORGANIZATIONAL CHART..………….....             16
  APPENDIX I – GLOSSARY OF TERMS.………..…………………………………………...…….                           17
                                                                  OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                               APRIL 1 – SEPTEMBER 30, 2011



EXECUTIVE SUMMARY

      This Semiannual Report to the Congress summarizes the activities and
      accomplishments of the Farm Credit Administration’s (FCA or Agency) Office of
      Inspector General (OIG) for the period April 1 through September 30, 2011. The
      OIG’s efforts were directed toward implementing the OIG’s fiscal year (FY) 2011
      strategic and operational plan and budget; performing audits, inspections, and
      evaluations of FCA programs and operations; conducting investigations, as
      necessary; independently and confidentially surveying Farm Credit System (FCS or
      System) institutions regarding the effectiveness of the Agency’s examination function
      and examiners; and providing objective, independent reporting and counsel to the
      FCA Board on FCA programs and operations.

      During this reporting period, the OIG issued one audit report. On September 12, a
      final audit report on the Agency’s Approval Process of Funding Corporation Debt
      Issuances was issued. The audit found the approval process in compliance with all
      guidelines and no action items resulted.

      There is one open agreed-upon action at the end of this reporting period from a
      report issued during a previous semiannual reporting period. See page 4 for further
      information.

      The audit of the FCA’s contracting activities is ongoing as is the independent
      financial statement audit of FCA for FY 2011. The OIG contracted with the Bureau
      of the Public Debt (BPD) for Brown and Company CPAs, PLLC (Brown & Co.) to
      perform the audit of FCA’s financial statements for FY 2011.

      Also initiated and ongoing during this period is the OIG’s annual evaluation of the
      Agency’s compliance with the Federal Information Security Management Act
      (FISMA). This annual evaluation is conducted by the OIG’s Senior Information
      Technology (IT) Auditor.

      Additionally, the OIG issued two quarterly reports to the Chief Examiner and FCA
      Board on results of OIG surveys of System institutions regarding the examination
      function and the examiners. These reports were for the quarters ended March 31
      and June 30, 2011.

      During the period, the OIG updated and issued its Strategic and Operating
      Performance Plan and Budgets for FYs 2012-2013 (SOPP). The SOPP is on the
      OIG’s website at http://www.fca.gov/Download/InspectorGeneral/Strategic&PerformancePlans/S&OPP12-13.pdf.
      Included in the SOPP is the OIG’s Audit Plan covering FYs 2012-2013 and beyond.




                                                 1
                                                          OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                       APRIL 1 – SEPTEMBER 30, 2011



        The OIG maintains five positions: the Inspector General (IG), a Deputy Inspector
        General (DIG) and Counsel, a Senior Auditor, a Senior IT Auditor, and an
        Administrative Assistant. Appendix G and Appendix H reflect the organizational
        structure of FCA and the OIG, respectively.


BACKGROUND

Farm Credit Administration

        The FCA is an independent Federal agency of the United States government
        responsible for the regulation and examination of FCS institutions chartered under
        the Farm Credit Act of 1971, as amended (Farm Credit Act). The FCA is also a
        “designated Federal entity” within the meaning of the Inspector General Act of 1978,
        as amended (IG Act).

        As a non-appropriated agency, FCA funds its expenses primarily through
        assessments to the institutions it regulates. The Agency’s FY 2011 budget is
        $54,832,588. Assessments by FCA to FCS institutions for FY 2011 were
        $49,100,000, with other sources of funding totaling $5,732,588. The OIG’s FY 2011
        budget is $1,109,149.

        At the end of this reporting period, FCA had 288 employees, about half of which are
        examiners located in five field offices. At the end of the prior semiannual reporting
        period, the Agency had 290 employees.

Farm Credit System

        The FCS is a Government-sponsored enterprise comprised of 5 Farm Credit banks
        and 84 lending associations, as of September 30, 2011, in all 50 states and Puerto
        Rico that primarily make loans to agriculture. The System raises funds by selling
        securities in the national and international money markets through its special
        purpose entity, the Federal Farm Credit Banks Funding Corporation. These
        securities are not guaranteed by the U.S. Government.

        The Federal Agricultural Mortgage Corporation (Farmer Mac), also a part of the
        FCS, is chartered by the Federal government to provide a secondary market for
        agricultural mortgage loans. Farmer Mac is publicly traded and issues its own debt
        securities.

        Additionally, there are four active service corporations organized under the Farm
        Credit Act that provide services to FCS entities and eligible borrowers.




                                            2
                                                          OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                       APRIL 1 – SEPTEMBER 30, 2011




AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED

        The OIG conducts all audits in accordance with Government Auditing Standards
        issued by the Comptroller General of the United States for audits of Federal
        organizations, programs, activities, and functions. Inspections and evaluations are
        conducted in accordance with the Council of the Inspectors General on Integrity and
        Efficiency (CIGIE) Quality Standards for Inspections. Copies of most OIG reports
        are available on the OIG web site at www.fca.gov/home/inspector.html, or by contacting
        the OIG at (703) 883-4030, or by TTY at (703) 883-4359, or by e-mail at
        ig_information@fca.gov.


FCA’s Approval Process of Funding Corporation Debt Issuances

        The OIG issued the final audit report on September 12, 2011. The audit’s objective
        was to assess whether FCA’s approval process of Funding Corporation debt
        issuances is operating efficiently and effectively and in compliance with applicable
        guidelines. The audit found that the approval process was in compliance with all
        guidelines and no action items resulted.


AUDITS, INSPECTIONS, AND EVALUATIONS IN PROGRESS

FCA’s Contracting Activities

        The audit’s objective is to determine whether the FCA's contracting environment
        is efficient and effective in acquiring products and services that provide the best
        value to FCA.

        Subsequent to the end of this reporting period, the OIG issued a final draft
        report on the contracting audit to Agency management on October 18, 2011.

FY 2011 Independent Financial Statement Audit of FCA

        The Accountability of Tax Dollars Act of 2002 extended to FCA and certain other
        agencies a requirement to submit to Congress and the Office of Management and
        Budget (OMB) an audited financial statement each fiscal year.

        In continuing to assist the Agency in meeting these requirements, the OIG
        contracted with the BPD for Brown & Co. to perform the audit of FCA’s financial
        statements for FY 2011. The audit remained ongoing at the end of this reporting
        cycle.




                                            3
                                                         OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                      APRIL 1 – SEPTEMBER 30, 2011




FY 2011 Federal Information Security Management Act Evaluation

       The evaluation of the Agency’s compliance with FISMA for FY 2011 is being
       performed by the OIG’s Senior IT Auditor, using guidelines established by FISMA,
       OMB, and the National Institute of Standards and Technology. This evaluation was
       ongoing at September 30, 2011.


STATUS OF UNIMPLEMENTED RECOMMENDATIONS

       At the beginning of the reporting period, there were 11 open action items resulting
       from OIG audits, inspections, or evaluation reports. Nine of the ten Borrower
       Complaint Processing action items closed during the period, and the one action item
       from the Adherence to the Government in the Sunshine Act inspection also closed.



             Audit, Inspection, and Evaluation Agreed-Upon Actions and
                                  Recommendations

                                                                      Final
                                               Open During
                                                                  Management          Open on
                 Report             Issued     this 6-Month
                                                                 Actions During      10/01/2011
                                                  Period
                                                                   this Period
         Adherence to the
           Government in the       7/26/2010         1                   1                 0
           Sunshine Act
         Borrower Complaint
                                   9/16/2010        10                   9                 1
           Processing

                          Total                     11                  10                 1




       The one remaining open agreed-upon action has been open since September 16,
       2010. Management continues to work towards this action item’s implementation. It
       is administrative in nature.




                                          4
                                                         OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                      APRIL 1 – SEPTEMBER 30, 2011



INVESTIG ATIONS

       No hotline calls were received alleging impropriety that would fall within the purview
       of the OIG. OIG Hotline calls and e-mails dealing with borrower complaints
       concerning FCS institutions and other FCS issues were referred to the FCA office or
       other Federal agency responsible for reviewing such matters.

       No investigations were opened during the reporting period.


LEGISLATION AND REGULATIONS

       In furtherance of the OIG’s mandate to review existing and proposed legislation and
       regulations, the IG or DIG and Counsel attends joint briefings of the FCA Board on
       regulations at the proposed and final stages. The following were reviewed by the
       DIG and Counsel:

       Legislation

           1) S. 241, The Non-Federal Whistleblower Protection Act
           2) S. 300, Purchase and Travel Card Controls
           3) S. 652, The American Infrastructure and Finance Authority
           4) S. 722, Improvement of Security in Federal Buildings
           5) S. 753, Whistleblower Protection Enhancement Act of 2011
           6) S. 790, Training for Newly Appointed Federal Supervisors
           7) S. 801, Information Technology Investment Management Act of 2011
           8) S. 991 / H.R. 1949, Clean-Up Act
           9) S. 1220, Fulfilling U.S. Energy Leadership Act
          10) S. 1212, Geolocational Privacy and Surveillance Act
          11) S. 1222 / H.R. 2146, Digital Accountability and Transparency Act of 2011 or
              DATA Act

          12) H.R. 828, 829, Requires Federal Taxes to be Paid

          13) H.R. 1136, Executive Cyberspace Coordination Act of 2011

          14) H.R. 1470, Federal Employee Probationary Period

          15) H.R. 1823, The Criminal Code Modernization and Simplification Act of 2011

          16) H.R. 1875, Building our Clean Energy Future Act of 2011




                                           5
                                                         OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                      APRIL 1 – SEPTEMBER 30, 2011

        Final Rule
           17) Farmer Mac Risk-Based Capital
           18) Lending and Leasing and Risk Management
           19) Loan Policies and Operations
           20) Loan Purchases from FDIC

        Proposed Rule
           21) Investment Management
           22) Liquidity and Funding
           23) Operating and Strategic Business Planning
           24) Margin and Capital Requirements for Covered Swap Entities

        Advance Notice of Proposed Rulemaking
           25) OSMO Risk Based Capital Stress Test, Version 5.0
           26) Capital Adequacy – Capital Components: Basel Accord Tier 1 / Tier 2

        Bookletter
           27) Farm Credit System Bank Merger Applications

        Informational Memorandum
           28) Amendments to Regulation M (Consumer Leasing) and Regulation Z (Truth
               in Lending)
           29) Registering Mortgage Loan Originators Under the Secure and Fair
               Enforcement for Mortgage Licensing Act of 2008


OTHER ACTIVITIES

Quarterly Survey of Farm Credit System Institutions

        The OIG administers an ongoing survey of FCS institutions regarding the quality and
        consistency of the Agency’s examination function and examiners. The OIG issues a
        quarterly report and, at the end of each FY, a summary report on the surveys’ results
        to the Chief Examiner and the FCA Board.

        During this 6-month period, the OIG sent surveys to the Audit Committee Chairmen
        and Chief Executive Officers of 37 FCS institutions. Quarterly reports for the 3-month
        periods ended March 31 and June 30, 2011, were issued by the OIG to the Chief
        Examiner and the FCA Board.




                                            6
                                                         OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                      APRIL 1 – SEPTEMBER 30, 2011

Staff Participation in Activities Within the Inspector General
Community

        OIG staff members are encouraged to take part in organizations that contribute to
        the mission of the Inspectors General community, as well as their individual
        professional development. Most staff members are actively involved in one or more
        professional organizations, as well as activities within the CIGIE.

        The IG serves as the Vice Chairperson of CIGIE, is a member of CIGIE’s Executive
        Council, helps chair the monthly meetings of all Inspectors General comprising
        CIGIE, and participates as a member of the CIGIE’s Inspection and Evaluation (I&E)
        Committee.

        The OIG DIG and Counsel meets monthly with counsels to the other Inspectors
        General. Counsel also attends DIG and Directors of Investigations meetings.
        Counsel also led, on behalf of CIGIE and the Council of Counsels to Inspectors
        General, the development of a course for new Offices of Inspector General
        attorneys. The course was presented for approximately 40 students on June 29,
        2011.

        The OIG Senior Auditor and Senior IT Auditor attend Federal Audit Executive
        Committee meetings and conferences. The Senior Auditor participates as a
        member of the I&E Committee’s Roundtable. The Senior IT Auditor is actively
        involved in the IT Subcommittee of the Federal Audit Executive Committee and
        attends local ISACA (formerly known as Information Security and Control
        Association) meetings.

Staff Participation in Agency Organizations

        OIG employees are active on Agency workgroups and task forces, as appropriate.

Staff Development

        OIG employees continually seek ways to improve skills and become knowledgeable
        in the initiatives of the community of Inspectors General. Audit and legal staff must
        meet continuing education requirements. Individual development plans are used to
        identify long and short-term career goals along with specific training and
        developmental needs. These plans are geared to enhance individual skills in the
        performance of official duties and meet the criteria needed to achieve OIG
        performance goals and objectives.




                                            7
                                                           OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                        APRIL 1 – SEPTEMBER 30, 2011



ANNEX

        This annex is provided in accordance with the National Defense Authorization Act for
        FY 2008.

        This referenced statute requires all Inspectors General appointed under the IG Act to
        include an annex to their semiannual reports as follows:

           1) listing all contract audit reports issued during the reporting period containing
              significant audit findings;

           2) briefly describing the significant audit findings in the report; and

           3) specifying the amounts of costs identified in the report as unsupported,
              questioned, or disallowed.

        Significant audit findings are defined as unsupported, questioned, or disallowed
        costs in excess of $10,000,000, or other findings that the Inspector General
        determines to be significant. It defines contracts as a contract, an order placed
        under a task or delivery order contract, or a subcontract.

        No contract audit reports meeting these criteria were issued on behalf of the OIG
        during this reporting period.




                                             8
                                                                      OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                                   APRIL 1 – SEPTEMBER 30, 2011

                                                                                           APPENDIX A


                                 INDEX OF REPORTING REQUIREMENTS                                     Page

Section 4(a)(2)         Review of Legislation and Regulations                                         5–6

Section 5(a)(1)         Significant Problems, Abuses, and Deficiencies                                None

Section 5(a)(2)         Recommendations for Corrective Action                                         None

Section 5(a)(3)         Prior Recommendations Not Yet Implemented                                       4

Section 5(a)(4)         Matters Referred to Prosecutive Authorities                                   None
                        Summary of Instances Where Information Was Unreasonably
Section 5(a)(5)                                                                                       None
                           Refused or Not Provided
Section 5(a)(6)         List of OIG Audit/Inspection Reports Issued During the Period                   3

Section 5(a)(7)         Summary of Significant Reports Issued During the Period                         3

Section 5(a)(8)         Statistical Table on Management Decisions with Questioned Costs                11
                        Statistical Table on Management Decisions on Recommendations
Section 5(a)(9)                                                                                        12
                            that Funds be put to Better Use
                        Summary of Each Audit Over Six Months Old for Which No
Section 5(a)(10)                                                                                      None
                            Management Decision Has Been Made
Section 5(a)(11)        Significant Revised Management Decisions                                      None
                        Significant Management Decisions with Which the Inspector
Section 5(a)(12)                                                                                      None
                           General Disagreed
Section 5(a)(13)        Compliance of Agency Financial Management System                                3

Section 5(a)(14)(15)    Peer Reviews Conducted of this OIG                                             13

Section 5(a)(16)        Peer Reviews Conducted by this OIG                                             14




                       FY 2008 NATIONAL DEFENSE AUTHORIZATION ACT CITATION
                                                                                                     Page
                                         AND REQUIREMENT

Section 845        Review of Legislation and Regulations                                              5-6




                                                     9
                                                      OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                   APRIL 1 – SEPTEMBER 30, 2011




                                                                           APPENDIX B




                 Audit, Inspection, and Evaluation Reports Issued

                                   Number of Agreed                     Recommendations
                                                      Questioned
                                     Upon Actions/                      That Funds Be Put
                                                        Costs
         Title of Report           Recommendations                        to Better Use

Approval Process of Funding
                                          0                $0                    $0
   Corporation Debt Issuances

                           Total          0                $0                    $0




                                          10
                                                                     OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                                  APRIL 1 – SEPTEMBER 30, 2011




                                                                                          APPENDIX C




                               Reports with Questioned Costs

                                                        Number                         Dollar Value

                                                           Recom-            Questioned       Unsupported
                                                Reports
                                                          mendations           Costs             Costs




A. For which no management decision has           0              0                $0                $0
   been made by the commencement of
   the reporting period
                                                  0              0                $0                $0
B. Which were issued during the reporting
   period                                         0              0                $0                $0
Subtotals (A+B)
C. For which a management decision was            0              0                $0                $0
   made during the reporting period
    (i) dollar value of disallowed costs          0              0                $0                $0
    (ii) dollar value of costs not disallowed     0              0                $0                $0
D. For which no management decision has
   been made by the end of the reporting
   period
                                                  0              0                $0                $0
E. For which no management decision was
   made within six months of issuance
                                                  0              0                $0                $0




                                                   11
                                                               OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                            APRIL 1 – SEPTEMBER 30, 2011




                                                                                    APPENDIX D




      Reports with Recommendations that Funds be Put to Better Use
                                                                     Number of
                                                        Number of     Recom-
                                                         Reports     mendations          Dollar Value

A. For which no management decision has been
   made by the commencement of the reporting               0               0                  $0
   period

B. Which were issued during the reporting period           0               0                  $0

Subtotals (A + B)                                          0               0                  $0

C. For which a management decision was made
                                                           0               0                  $0
   during the reporting period

    (i) dollar value of recommendations that
                                                           0               0                  $0
        were agreed to by management

        --based on proposed management action              0               0                  $0

        --based on proposed legislative action             0               0                  $0

    (ii) dollar value of recommendations that
                                                           0               0                  $0
         were not agreed to by management

D. For which no management decision has been
                                                           0               0                  $0
   made by the end of the reporting period

E. For which no management decision was made
                                                           0               0                  $0
   within six months of issuance




                                                   12
                                                            OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                         APRIL 1 – SEPTEMBER 30, 2011




                                                                                    APPENDIX E




                   Peer Reviews Conducted of this Office

         Peer Review Performed By                 Date of Report         Function          Peer
                                                                         Reviewed         Review
                                                                                          Rating

U.S. Commodity Futures Trading Commission
                                                  February 4, 2011          Audit           Pass
Office of Inspector General
U.S. Security and Exchange Commission
                                                 December 26, 2007     Investigations       Pass
Office of Inspector General




                                            13
                                                             OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                          APRIL 1 – SEPTEMBER 30, 2011

                                                                                   APPENDIX F




                     Peer Reviews Conducted by this Office

                 Peer Review Of                    Date of Report     Function        Peer Review
                                                                      Reviewed          Rating

  Consumer Product Safety Commission (CPSC)
                                                   May 23, 2011          Audit            Pass
    Office of Inspector General




The chart below summarizes the status of recommendations made from the prior peer review of
the CPSC OIG’s audit function at the conclusion of our fieldwork.


    Status of Prior Peer Review Recommendations
          Of CPSC OIG’s Audit Function

                                                        Number of
                                                   Recommendations


 A. Corrective Action Completed                             2

 B. Recommendations Not Fully Implemented                   4

 C. Outstanding Recommendations                             1

                                                            7
 D. Total Recommendations




                                              14
                                                                                                     OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                  APRIL 1 – SEPTEMBER 30, 2011




                                                                                                                                    APPENDIX G


                                                      FCA Organizational Chart

                                                        Farm Credit Administration Board
                                                                                                                        Office of
                                                                          Board                                    Inspector General1
                                                            Leland A. Strom, Chairman
                                                          Kenneth A. Spearman, Member
                                                           Jill Long Thompson, Member                               Carl A. Clinefelter


                      Secretary to the Board

                          Dale L. Aultman                                                                         Office of
                                                                                                              Congressional and
                                                                                                                Public Affairs

                        Equal Employment                                                                      Michael A. Stokke2
                                                              Office of the Chairman
                       and Inclusion Director                        and CEO
                           Thais Mootz                              Leland A. Strom                           Office of Secondary
                                                                                                               Market Oversight3

                        Designated Agency                                                                       Laurie A. Rea
                          Ethics Official

                       Wendy R. Laguarda



                      Special Advisor YBS &
                       Local Food Systems

                          Mark Johansen
                                                                    Office of the Chief
                                                                    Operating Officer

                                                                 William J. Hoffman




       Office of Management                 Office of Examination                            Office of                             Office of
              Services                                                                    Regulatory Policy                     General Counsel4
                                                S. Robert Coleman
         Stephen G. Smith                                                             Gary K. Van Meter                         Charles R. Rawls




1
    The Dodd-Frank Wall Street and Consumer Protection Act, Public Law 111-203, amended the Inspector General Act, 5 U.S.C. App 3,
    changing the meaning of “head of the designated Federal entity.” The effect is that the Inspector General now reports to the FCA Board.
    Prior to the amendment, the FCA Chairman was the “head of the designated Federal entity” under the IG Act and the IG reported to the
    Chairman.
2
    Serves as Executive Assistant to the Chairman.
3
    Reports to the Board for policy and to the CEO for administration.
4
    Maintains a confidential advisory relationship with each of the Board members.




                                                                               15
                                                              OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                           APRIL 1 – SEPTEMBER 30, 2011



                                                                                   APPENDIX H




               Office of Inspector General Organizational Chart




                                  Inspector General
                                  Carl A. Clinefelter


                       Administrative
                         Assistant
                      Debra M. Miller


          Deputy Inspector
         General and Counsel
                                    Senior Auditor                  Senior IT Auditor
         Elizabeth M. Dean       Veronica G. McCain                     Tammy F. Rapp




                                                                               December 9, 2010
                               Carl A. Clinefelter, Inspector General          Date
Carl C




                                               16
                                                           OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                        APRIL 1 – SEPTEMBER 30, 2011



                                                                                 APPENDIX I



                                  Glossar y of Terms



Agency            – Farm Credit Administration
BPD               – Bureau of the Public Debt
Brown & Co.       – Brown & Company CPAs, PLLC
CIGIE             – Council of the Inspectors General on Integrity and Efficiency
CPSC OIG          – Consumer Product Safety Commission Office of Inspector General
DIG               – Deputy Inspector General
Farm Credit Act   – Farm Credit Act of 1971, as amended
Farmer Mac        – Federal Agricultural Mortgage Corporation
FCA               – Farm Credit Administration
FCS               – Farm Credit System
FISMA             – Federal Information Security Management Act
FY                – Fiscal Year
H.R.              – House Resolution
IG                – Inspector General
IG Act            – Inspector General Act of 1978, as amended
I&E               – Inspection and Evaluation
ISACA             – Information Security and Control Association
IT                – Information Technology
OE                – Office of Examination
OIG               – Office of Inspector General
OMB               – Office of Management and Budget
PAR               – Performance Accountability Report
System            – Farm Credit System




                                             17
                                    OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                 APRIL 1 – SEPTEMBER 30, 2011




        R E P O R T
Fraud     |   Waste    |    Abuse    |    Mismanagement




        FARM CREDIT ADMINISTRATION
        OFFICE OF INSPECTOR GENERAL

• Phone: Toll Free (800) 437-7322; (703) 883-4316

• Fax:        (703) 883-4059

• E-mail: fca-ig-hotline@rcn.com

• Mail:       Farm Credit Administration
              Office of Inspector General
              1501 Farm Credit Drive
              McLean, VA 22102-5090




                           18
